of E-Mail Address: 1115 H Street, N.E.
Est.

briefs@wilsonepes.com Washington, D.C. 20002
WO Web Site: Tel (202) 789-0096
estes www.wilsonepes.com Fax (202) 842-4896

No. 20-1088

Davip and AMy CaRSON, as parents and
next friends of O.C., et al.,
Petitioners,
Vv.

PENDER MAKIN, in her official capacity as
Commissioner of the Maine Department of Education,

Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on September 10, 2021, three (3) copies of the BRIEF FOR THE
CHURCH OF JESUS CHRIST OF LATTER-DAY SAINTS; ETHICS & RELIGIOUS LIBERTY
COMMISSION OF THE SOUTHERN BAPTIST CONVENTION; ISLAM AND RELIGIOUS
FREEDOM ACTION TEAM, RELIGIOUS FREEDOM INSTITUTE; CHURCH OF GOD IN
CHRIST, INC. AS AMICI CURIAE SUPPORTING PETITIONERS in the above-captioned case
were served, as required by U.S. Supreme Court Rule 29.5(c), on the following:

MICHAEL EUGENE BINDAS SARAH ANN FORSTER

INSTITUTE FOR JUSTICE OFFICE OF THE MAINE ATTORNEY GENERAL
600 University Street, Suite 1730 6 State House Station

Seattle, WA 98101 Augusta, ME 04333

(206) 957-1300 (207) 626-8866

Counsel for Petitioners Counsel for Respondent

The following email addresses have also been served electronically:

sgunnarson@kmclaw.com
mbindas@ij.org
sarah.forster@maine.gov

Risley De nee W/L,
ROBYN Dorsry WILLIS

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 10th day of September 2021.

   

COLIN CASEY HOGAN
NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
